                            CLOSEOUT FOR M97110041
          On 4 November 1997, OIG was informed1of allegations of misconduct in science
  against the subject.* It was alleged that the subject's NSF proposal3 contained text
  plagiarized from the subject's graduate research advisor's NSF award.4 In addition, the
  subject's proposal allegedly described research that was essentially the same as research
  presented in the advisor's award, suggesting that the subject was seeking duplicate
  funding.

          We noted that some of the text in the subject's proposal was substantially similar
  to text in the advisor's award without any attribution to a source document. In addition,
  several of the research projects presented in the subject's proposal appeared to be similar
  to projects described in the advisor's award.

          We wrote to the subject who explained that he and his former advisor "maintained
  a collaboration" and, therefore, similarities between their research "should not be
. surprising." The subject provided documentation that the similar text in his proposal was
  not copied from the advisor's award, but rather it was material from jointly authored
  earlier awards and publications, and the subject's Master's thesis. We determined that
  the subject and advisor had collaborated in the preparation of the text that was common
  to the proposal and award. We concluded that there was no substance to the allegation of
  plagiarism.

          The subject also explained that three of the seven projects in his proposal bore
  some resemblance to the projects from his advisor's award, but that this resemblance
  involved only the materials to be investigated, not the technique to be used. We
  determined that the technique described in the subject's proposal for the research projects
  was different and more sophisticated than that presented in the award. At our request, an
  NSF expert in the field reviewed the subject's response and concluded that the subject's
  explanations were reasonable. We concluded that there was no substance to the
  allegation that the subject sought duplicate funding to do the same research.

         This case is closed and no further action will be taken.

  cc: Staff Scientist, Investigations, Attorney, AIG Oversight, IG.




                                     Footnotes Redacted



                                              Page 1 of 1
